                                          OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM




We received an allegation1 of plagiarisrn/intellectual theft involving an NSF proposal submitted
by subjects 1 and 2.2 Our review determined that there was no evidence that the subjects
plagiarized any idea in the NSF proposal.

Accordingly, this case is closed and no further action will be taken.
